GENERAL SERVICES ADMINISTRATION
  OFFICE OF INSPECTOR GENERAL



             Recovery Act Report –
             Energy Retrofit for the
         New Carrollton Federal Building
         Review of PBS’s Limited Scope
        and Small Construction Projects
      Funded by the American Recovery and
           Reinvestment Act of 2009
       Audit Number A090184/P/R/R11010

                 June 13, 2011
Date:           June 13, 2011

Reply to        Marisa A. Roinestad
Attn of:        Audit Manager
                Real Property Audit Office (JA-R)

Subject:        Recovery Act Report—Energy Retrofit for the New Carrollton Federal
                Building
                Review of PBS’s Limited Scope and Small Construction Projects Funded
                by the American Recovery and Reinvestment Act of 2009
                Audit Number A090184/P/R/R11010

To:             Julia E. Hudson
                Regional Administrator
                National Capital Region (WA)

As part of our oversight of the National Capital Region’s limited scope and small
construction American Recovery and Reinvestment Act (Recovery Act) projects, we
reviewed the contract award1 for the energy retrofit project at the New Carrollton
Federal Building in the amount of $11,681,779, including options. During our review,
we identified several issues that require your attention. Specifically:

         The award document exceeds the underlying bid by $4,863,443;
         The price reasonableness determination was questionable because of the large
          variance between the independent government estimate (IGE) and the award
          amount; and
         An incomplete assessment of one energy conservation measure (ECM)
          circumvented management controls established to ensure ECMs meet greening
          strategy goals.

Award Document Exceeds Bid by $4.9M

The total amount on the award document2 exceeds the winning proposal by $4,863,443
and Public Buildings Service (PBS) officials could not explain how this mistake


1
  Contract number GS-11P-10-YA-C-0197.
2
  Standard Form 1442 (SF 1442) represents the contract award. The SF 1442 includes both line items
that have been funded as well as optional line items that could be funded in the future. These optional
line items are considered part of the project’s scope and are evaluated for price reasonableness with the
base award; however, funding is not yet available for the options. These optional line items can be
awarded in the future, without additional price evaluation, if funding becomes available.
                                                    1
occurred. The winning bidder submitted the lowest bid in the amount of $6,818,336 for
the base and 15 optional ECMs. According to the contract specialist, no negotiations
occurred during the procurement; therefore, the amounts on the award document
should match the winning bidder’s price proposal. We confirmed with PBS personnel
that the bid and award amount should be the same.                  Moreover, the price
reasonableness determination in the Price Negotiation Memorandum (PNM) was based
on the $6,818,336 bid amount. However, the amount on the award document for
options not yet exercised was $4,863,443 greater than the bid amount. If the higher
amounts on the award document represented the actual bid, the awardee would not
have been the winning bidder. Rather, another bidder would have been the lowest-
priced, technically-acceptable contractor. While we first informed the contract specialist
of this error on February 1, 2011, the award document was not corrected upon
completion of audit fieldwork. This error should be corrected to ensure award to the
lowest-priced, technically-acceptable bidder at the correct amount.

Award Amount Significantly Different Than Independent Government Estimate

According to the PNM, the contracting officer used the final IGE in determining price
reasonableness yet the amount on the award document, including the base and
options, was 63 percent higher than the IGE. The actual difference between the award
documentation and IGE was not addressed in the PNM. The fact that the IGE was
significantly different from the award amount should have alerted the contracting officer
to a problem with the award. Had the correct bid amount been used in the award, the
difference between award and IGE would have only been 5 percent.

Additionally, the final IGE was revised after receipt of proposals, which violates project
estimating guidance. During evaluation of bids submitted, there were concerns by the
contracting officer and contract specialist that the original IGE was too high. The project
manager was requested to review the IGE again, with a complete understanding of the
project scope. The IGE was revised on August 15, 2010, based on additional market
research and historical work for projects of a similar type, scope, and magnitude. The
final IGE was 37 percent lower than the original IGE. The receipt of bids occurred on
June 25, 2010, prior to the creation of the final IGE. Per project estimating guidance, a
qualified government employee must sign and approve the IGE, which serves as the
basis for commitment of funds before the solicitation is issued.

Energy Conservation Measure Not Reviewed by Program Management Office

Prior to contract award, ECM 211,3 which is intended to create and implement
measurement and verification protocol with the building automation system, was not
vetted through the proper approval process. The project manager indicated that this
ECM was not expected to be funded; however, we note that all optional line items on
the SF 1442 have the potential to be awarded in the future. The proper process to
approve an ECM begins with the creation of an energy study that identifies estimated

3
    ECM 211 is an optional line item with a potential value of $251,303.
                                                       2
savings and payback for ECMs. This information is incorporated in the Limited Scope
Approval Request (LSAR), which is reviewed by the National Recovery Program
Management Office (PMO). While an energy study was performed for this ECM, the
ECM was not incorporated into an LSAR or reviewed by the PMO. This circumvents the
management controls established to ensure that only energy measures that meet
GSA’s greening strategy goals are awarded.

Conclusion

We conclude that certain provisions of the Federal Acquisition Regulation and PBS
policy were violated during the award of the contract. Additionally, due to the incomplete
assessment of one energy conservation measure, PBS did not adequately determine if
the project met the requisite green building investment strategy.

Recommendation

We recommend that the Regional Administrator, National Capital Region:

      1) Ensure that the award amount is corrected.

Management Comments

The Regional Administrator’s response to our draft report is included in its entirety in
Appendix A. PBS is in agreement with the first two audit findings and the audit
recommendation. PBS took exception to the third audit finding, explaining that ECM
211 is not truly an ECM and therefore was not subject to LSAR review. We disagree
with this position and provide our rationale in Appendix B.

We appreciate the support that has been provided throughout this review. If you have
any questions about this report, please contact me at (202) 219-0088.


Sincerely,




Marisa A. Roinestad
Audit Manager
Real Property Audit Office (JA-R)




                                            3
                 Recovery Act Report –
Energy Retrofit for the New Carrollton Federal Building
Review of PBS’s Limited Scope and Small Construction
   Projects Funded by the American Recovery and
              Reinvestment Act of 2009
         Audit Number A090184/P/R/R110101

               Management Comments




                         A-1
A-2
                                Recovery Act Report –
               Energy Retrofit for the New Carrollton Federal Building
               Review of PBS’s Limited Scope and Small Construction
                  Projects Funded by the American Recovery and
                             Reinvestment Act of 2009
                         Audit Number A090184/P/R/R11010

                      OIG Response to Management Comments

We disagree with PBS’s position that ECM 211 “is actually not an ECM, at
all…Therefore, no LSAR [Limited Scope Approval Request] is required for this item.”
While ECM 211 does represent efforts related to measurement and verification, there is
a potential cost associated with the optional line item. The contractor that PBS selected
bid $112,982 for ECM 211. The cost of this service should therefore have been
included in the LSAR.

The National Recovery Program Management Office (PMO) established the LSAR in
order to set the scope for High-Performance Green Building Limited Scope Energy
projects. The PMO noted, “Proposed scopes should be achievable within the ARRA
budgeted amount for the building and identify a priority of items to be implemented
based on greatest reduction of energy usage, energy cost, and/or lowest life cycle cost.”
Given that there was a potential cost for ECM 211, it should have been included in the
cost-benefit analysis associated with determining the project scope.




                                          B-1
                                Recovery Act Report –
               Energy Retrofit for the New Carrollton Federal Building
               Review of PBS’s Limited Scope and Small Construction
                  Projects Funded by the American Recovery and
                             Reinvestment Act of 2009
                         Audit Number A090184/P/R/R11010

                  Background, Objectives, Scope, and Methodology

Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provides the
General Services Administration (GSA) with $5.55 billion for its Federal Buildings Fund.
In accordance with the Recovery Act, the GSA Public Buildings Service (PBS) is using
these funds to convert federal buildings into High-Performance Green Buildings as well
as to construct federal buildings, courthouses, and land ports of entry. The Recovery
Act mandated that $5 billion of the funds be obligated by September 30, 2010, and that
the remaining funds be obligated by September 30, 2011. The GSA Office of Inspector
General is conducting oversight of the projects funded by the Recovery Act.

Objectives

Our objectives were to determine if the project meets the requisite “green building”
investment strategy and if GSA’s PBS awarded the contract in accordance with the
provisions of the Federal Acquisition Regulation.

Scope

We performed the work for this report between November 2010 and March 2011.

Methodology

To accomplish the objectives we reviewed the contract file and other pertinent project
documents, met with project staff, and reviewed applicable guidance and regulations.

We conducted this performance audit in accordance with generally accepted
government auditing standards except as noted below. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The planning for this review is based on the audit plan for oversight of the Recovery Act
projects as well as review guidance being applied to all Limited Scope and Small
Construction Recovery Act projects. A separate guide was not prepared for this project.



                                          C-1
As this work was performed under the continuing oversight of all GSA Recovery Act
projects, management controls are currently under assessment.         Only those
management controls discussed in the report have been assessed.




                                      C-2
                                Recovery Act Report –
               Energy Retrofit for the New Carrollton Federal Building
               Review of PBS’s Limited Scope and Small Construction
                  Projects Funded by the American Recovery and
                             Reinvestment Act of 2009
                         Audit Number A090184/P/R/R11010

                                   Report Distribution

Regional Administrator, National Capital Region (WA)

Regional Commissioner, Public Buildings Service, National Capital Region (WP)

Regional Recovery Executive, Public Buildings Service, National Capital Region (WP)

Public Buildings Service Commissioner (P)

National Program Office ARRA Executive, Public Buildings Service (PCB)

Director, Internal Audit and Follow-up Division (BEI)

Public Buildings Service Audit Liaison (PFF)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant Inspector General for Investigations (JI)

Special Agent in Charge, Mid-Atlantic Regional Office (JI-W)




                                           D-1
